POSTAL REGULATORY COMMISSION

  OFFICE OF INSPECTOR GENERAL




         FINAL AUDIT REPORT

 INFORMATION TECHNOLOGY GOVERNANCE
                AND
   INFORMATION SECURITY PLANNING

             Audit Report 07-02A-01
               January 30, 2008



       Digitally signed by Jack Callender
       DN: cn=Jack Callender, o=PRC, ou=OIG,
       email=prc-ig@prc.gov, c=US
       ________________________________
                 JACK CALLENDER
               INSPECTOR GENERAL
                                                                                                                   AR 07-02A-01




                                            TABLE OF CONTENTS
                                                                                                                     PAGE


EXECUTIVE SUMMARY ..............................................................................................1

INTRODUCTION ..........................................................................................................2

   Background ...........................................................................................................2

   Objectives, Scope and Methodology .....................................................................3

RESULTS ....................................................................................................................4

   Information Security Plans ....................................................................................5

   Information Security Policies and Procedures.......................................................6

   Ongoing Monitoring ..............................................................................................6

RECOMMENDATIONS .................................................................................................7

GLOSSARY .................................................................................................................9

AGENCY RESPONSE ...................................................................................................12
                                                                             AR 07-02A-01




EXECUTIVE SUMMARY

Introduction                 We audited the Postal Regulatory Commission’s (PRC)
                             information technology governance and information
                             security planning to assess and ensure that the PRC is
                             taking a proactive approach in managing risk by aligning
                             PRC’s information security plan to overall agency strategic
                             plans, planning an organizational structure with clearly
                             identified roles and responsibilities with regard to
                             information security, planning to develop secure enterprise
                             architecture and planning to document security objectives.
                             The PRC has taken the initiative to adhere to the Federal
                             Information Security Management Act (FISMA) of 2002,
                             Title III of the E-Government Act (Public Law 107-347),
                             which requires that all federal agencies develop and
                             implement an agency-wide security program to safeguard
                             Information Technology (IT) assets and data of the
                             respective agency.

Results in Brief             PRC has taken a proactive approach concerning its
                             information security governance. However, the PRC does
                             not have a formal comprehensive information security plan
                             that identifies management objectives. It has failed to
                             identify an organizational structure and associated roles and
                             responsibilities. The PRC has not identified an enterprise
                             architecture that describes the current and future structure
                             and identifies expected user behavior. It does not have
                             formal information security policies and procedures that
                             identify appropriate security controls required to ensure the
                             security of its information assets. Finally, the PRC has not
                             established an ongoing monitoring plan with milestones for
                             completion to ensure that its objectives are achieved.

Summary of Recommendations   The PRC should continue to support preparation,
                             completion and final approval of a formal information
                             security plan; implement an organizational structure with
                             defined roles and responsibilities; implement formal
                             information security policies and procedures; document the
                             enterprise architecture and implement an ongoing
                             monitoring plan with achievable and realistic milestones
                             for completion.
                                                                                             AR 07-02A-01



INTRODUCTION
Background

The Postal Regulatory Commission (PRC) was established by the Postal Accountability
and Enhancement Act of 2006 (PAEA), (Public Law 109-435), enacted on December 20,
2006. Like most federal agencies, the PRC relies on information technology (IT) to run
its operations and to provide public access to PRC proceedings and Postal Service
information.

The National Institute of Standards and Technology (NIST) 1 defines information
security governance as “the process of establishing and maintaining a framework and
supporting management structure and processes to provide assurance that information
security strategies are aligned with and support business objectives; are consistent with
applicable laws and regulations through adherence to policies and internal controls;
and provide assignment of responsibility, all in an effort to manage risk”. 2

An agency’s information security governance structure should ensure that information
security controls support its mission in an appropriate and cost-effective manner, while
managing evolving information security risks. Title III of the E-Government Act of 2002
(Public Law 107-347), the Federal Information Security Management Act 3 (FISMA)
requires that all federal agencies develop and implement an agency-wide security
program 4 designed to safeguard the agency’s IT assets and data. Relevant laws and
regulations place the responsibility and accountability for information security at all
levels within federal agencies from the agency head to each Information Technology (IT)
user. Based on these laws and regulations, NIST has developed a body of standards,
guidance and practices for agencies to follow. PRC management has made a
commitment to meeting FISMA’s requirements.




1
  NIST is the standards-defining agency of the U.S. government, formerly the National Bureau of
Standards. It is one of three agencies that fall under the Technology Administration (www.technology.gov),
a branch of the U.S. Commerce Department that is devoted to advancing American economic growth using
technology. (www.nist.gov)
2
  Special Publication 800-100, Information Security Handbook: A Guide for Managers, provides an
overview of information security elements that managers can understand, establish and implement as an
effective information security program.
3
  FISMA encourages federal agencies to understand their information systems and sets forth specific
requirements that the agency’s information security program should abide by or stipulate rationale as to
why the agency could not adhere to these standard requirements.
4
  A “security program” to be effective must: (a) provide for periodic assessment of risk; (b) implement
policies and procedures that are based on the risk assessment; (c) provide plans for information security for
the organization’s networks, facilities, and information systems; provide security awareness training; (d)
provide for the performance of periodic testing and evaluation, as well as planning, implementing,
evaluating and documenting remedial activities of the information security policies, procedures, practices
and security controls; (e) provide procedures for detecting and reporting incidents; and (f) plan for the
assurance of continuity.


                                                     2
                                                                                           AR 07-02A-01


In order for information security governance to be effective, management’s planning
should include identifying the agency’s IT assets, assigning values to the assets,
documenting, developing and then implementing security policies, procedures, standards
and guidelines that provide for the integrity 5 , confidentiality 6 and availability 7 of these
assets. In addition, the PRC’s information security governance structure should support
the overall mission and strategic plans of the organization. The key components of an
information security governance structure are illustrated in Figure 1.



                      Governance
                       Strategic Planning

           Organizational      Roles and         Enterprise
             Structure       Responsibilities   Architecture

                                                                       Ongoing
                  Policies and Guidelines                             Monitoring


                       Implementation

                             Figure-1 Information Security Governance Components
                                        NIST Special Publication 800-100 8



Objectives, Scope and Methodology

The purpose of this audit is to ensure that the Postal Regulatory Commission is taking a
proactive approach in managing risk by aligning its information security plans and
governance structure with the agency’s overall mission, goals and objectives to ensure
thorough information security planning. We relied on the PRC to provide its information
security plans including: (i) plans for an organizational structure which identifies specific
roles and responsibilities for information and information assets; (ii) plans for agency-
wide security policies and procedures for ensuring that management objectives for
information and information technology are being maintained; (iii) plans for enterprise
architecture that is secure and protected both internally and externally against loss or




5
  Integrity is defined as the guarding against improper modification or destruction and includes ensuring
information non-repudiation and authenticity.
6
  Confidentiality is defined as the preservation of authorized restrictions on information access and
disclosure including means for protecting personal privacy and proprietary information.
7
  Availability is defined as ensuring timely and reliable access to and use of information.
8
  National Institute of Standards and Technology, Information Security Handbook: A Guide for Managers.
Special Publication 800-100 provides an overview of information security elements for managers.


                                                               3
                                                                                            AR 07-02A-01


misuse; and (iv) a Plan of Action and Milestones 9 (POA&M) from which to assess these
ongoing monitoring efforts. We verified the existence or availability of this data and not
the completeness or the specific controls effected.

RESULTS
The PRC has taken a proactive approach in the establishment of information technology
governance and information security strategic planning. PRC should continue to
establish and implement an information security governance program through the
organization’s growth and development that appropriately identifies and ensures the
adequacy and effectiveness of security to the enterprise information assets. Effective
information security planning and governance can be accomplished if the PRC ensures
that:

             •   Information security is integrated with enterprise management, strategic
                 planning, capital planning and enterprise architecture.
             •   Information security is implemented and maintained to meet any
                 appropriate requirements, laws, regulations and PRC’s organizational
                 policies.
             •   Information security organizational structure is adequate as the PRC
                 evolves with PAEA legislation requirements.
             •   Information security polices are communicated to all stakeholders at all
                 levels of the PRC organization to ensure that individuals will be held
                 responsible for their actions.
             •   Information security responsibilities are assigned to appropriately trained
                 individuals.
             •   Improvement and performance of information security is performed
                 through continuous monitoring.

Improvement and performance of information security is required through continuous
monitoring. PRC has obtained through contract services: (i) an independent assessment
and suggested approach on the development of PRC’s strategic goals, organizational
structure and development of job performance structure and criteria; and (ii) an
independent risk evaluation and suggested guidance of security controls in accordance
with NIST Special Publication 800-53. In addition, the PRC is working to ensure the
enterprise architecture is secure as it progresses through re-engineering and redesigning
of its Web site. PRC has not yet completed all of the appropriate components for an
effective information security governance environment.

Although PRC management was responsive to requests for information regarding its
information security plans, organizational structure, agency-wide security policies,
management objectives for information technology and current enterprise architecture,

9
 POA&M’s are used by management to assist in identifying, assessing, prioritizing and monitoring the
progress of corrective efforts for security weaknesses found in programs and systems, as identified in NIST
Special Publication 800-100.


                                                    4
                                                                               AR 07-02A-01


many of these documents were not yet completed.

Information Security Plans

The PRC does not have written and approved security plans. The information security
plans should provide an overview of the security requirements of the organization and
further describe the controls planned for meeting these requirements. Formal security
plans are important to any organization. An organization’s security plan is
management’s communication mechanism that provides for the information security
structure of the organization.

The security plan should serve as a guide to define the functional and divisional
plans that include information systems and information technology. This written
security plan should:

           •   Provide a framework for decisions and security of information and
               information assets;
           •   Provide a basis for more detailed planning.

The PRC should finalize a comprehensive information security plan and create security
plans for each of its information systems. The PRC should seek guidance in the creation
and finalization of its security plans through the standards, guidance and baselines as
identified in:

           •   Federal Information Processing Standards (FIPS) 200 Minimum Standard
               Security Requirements for Federal Information and Information Systems
               in seventeen security related areas;
           •   NIST Special Publication 800-53, Recommended Security Controls for
               Federal Information Systems; and
           •   NIST Special Publication 800-18, Rev-1, Guide for Developing Security
               Plans for Federal Information Systems, Appendix A.

The PRC should ensure that the information security plans are sufficient and current to
accommodate the information security environment, agency mission and operational
requirements.

       Organizational Structure

The information security plans should delineate the organizational responsibilities as well
as the expected behavior of all who have access to the PRC’s systems. The individual
who assumes this role of managing and addressing security in the organization carries a
significant and potentially critical responsibility that may include the performance of risk
assessments to the implementation of security policies and procedures. The security plan
should cover all aspects of the organization from human resource issues to specifically
defining security duties and the PRC systems used in the organizational environment.



                                             5
                                                                                AR 07-02A-01


       Roles and Responsibilities

PRC should create information security plans that, at a minimum, identify information
security roles and responsibilities and provide a baseline of security controls and rules for
exceeding the baseline. The roles and responsibilities should clearly identify PRC’s
expectations for user compliance and repercussions for noncompliance.

       Enterprise Architecture

The PRC should continue to develop, document and identify its current enterprise
architecture. The enterprise architecture should describe the current and future structure
and behavior of an organization's processes, information systems and personnel that are
aligned with the organization's core goals and strategic direction. A strong enterprise
architecture process helps to determine if:

           •   The current architecture supports and adds value;
           •   Major changes or modifications to the architecture are necessary;
           •   The current architecture supports the PRC’s goals.

Information Security Policies and Procedures

The PRC does not have formal written information security policies and procedures
which identify agency practices, rules, laws and regulations and how the PRC chooses to
manage, protect and distribute sensitive and non-sensitive information securely.
Information security policies and procedures are essential to the organization’s
information security controls and should be developed by the PRC. Without written and
approved information security policies and procedures in place, the PRC cannot ensure
the continued availability, confidentiality and integrity of its information assets.

Ongoing Monitoring

The PRC does not have an ongoing monitoring process in place to ensure that its planned
mission and objectives are on target and that the appropriate security controls are in place
to protect the overall agency environment. PRC’s information governance structure (i.e.,
security plans, organizational structure, roles and responsibilities) can be enhanced by an
ongoing monitoring and assessment process ensuring its mission and objective are
appropriate as originally planned. This ongoing review process also ensures that present
information security controls do not become obsolete. It also provides for opportunities
to discover the advent of new technologies that may better serve and support the agency
in the future.




                                              6
                                                                                           AR 07-02A-01



RECOMMENDATIONS
The PRC should continue to:

•      Support preparation, completion and final approval of a formal information security
       plan;

           Management Response 10

           Management agreed with our recommendation and stated that the security plan
           will supplement and support the Commission's IT security policy currently under
           review. The Commission plans to complete its information security plan by
           June 30, 2008.

           Evaluation of Management Response

           Management's comments are responsive to the recommendation, and the action
           taken or planned should correct the issue identified.

•      Implement an organizational structure with defined roles and responsibilities;

           Management Response

           Management agreed with our recommendation and stated that the PRC expects to
           implement an organizational structure with better defined roles and
           responsibilities by March 31, 2008.

           Evaluation of Management Response

           Management's comments are responsive to the recommendation, and the action
           taken or planned should correct the issue identified.

•      Implement formal information security policies and procedure;

           Management Response

           Management agreed with our recommendation and stated that the PRC has
           performed a risk assessment of its security controls that will be used as a
           foundation in formulating its security policy and plan to be implemented by
           June 30, 2008.




10
     Management's comments in their entirety are included in Appendix II of this report.



                                                       7
                                                                            AR 07-02A-01


       Evaluation of Management Response

       Management's comments are responsive to the recommendation, and the action
       taken or planned should correct the issue identified.

•   Document the enterprise architecture;

       Management Response

       Management agreed with our recommendation and stated that the PRC is
       researching and documenting the enterprise architecture of the existing
       information technology structure. The Commission expects to have a formal
       enterprise architecture structure prepared by first quarter 2009.

       Evaluation of Management Response

       Management's comments are responsive to the recommendation, and the action
       taken or planned should correct the issue identified.

•   Implement an ongoing monitoring plan with achievable and realistic milestones for
    completion.

       Management Response

       Management agreed with our recommendation and stated that the Commission
       expects to implement a formal monitoring plan upon completion of the security
       policies by June 30, 2008.

       Evaluation of Management Response

       Management's comments are responsive to the recommendation, and the action
       taken or planned should correct the issue identified.

We appreciate the courtesies and cooperation extended during this audit. If you need
additional information, please contact Jack Callender at (202) 789-6817.




                                            8
                                                                                AR 07-02A-01


                                                                               APPENDIX I

                                   GLOSSARY

                 ITEM                                        DESCRIPTION

Agency                                         Any executive department, government
                                               corporation, government controlled
                                               operation, or other establishment in the
                                               executive branch of the government, or any
                                               independent regulatory agency.

Federal Information Processing Standards       Issued by the National Institute of
(FIPS) Publications Series                     Standards and Technology (NIST) FIPS are
                                               the official series of publications relating to
                                               standards and guidelines adopted and
                                               promulgated under the provisions of
                                               Section 5131 of the Information
                                               Technology Reform Act of 1996 (Public
                                               Law 104-106) and the Federal Information
                                               Security Management Act of 2002 (Public
                                               Law 107-347).

Federal Information Security Management        The FISMA Act is the primary legislation
Act (FISMA) of 2002                            governing federal information security
                                               programs. It delegates to the National
                                               Institute of Standards and Technology
                                               (NIST) the responsibility to develop
                                               detailed information security standards and
                                               guidance for federal information systems
                                               with the exception of national security
                                               systems. FISMA also delegates to OMB
                                               the oversight of federal agencies’
                                               information security implementation.
                                               Further, FISMA provides the framework
                                               for securing federal government IT
                                               resources, including key federal
                                               government and agency roles and
                                               responsibilities, requiring agencies to
                                               integrate information security into their
                                               capital planning and enterprise architecture
                                               processes, requiring agencies to conduct
                                               annual information security reviews of all
                                               programs and systems, and reporting the
                                               results of those reviews to OMB. Enacted


                                           9
                                                         AR 07-02A-01


                          as Title III of the E-Government Act of
                          2002, has tasked NIST with responsibilities
                          for standards and guidelines, and
                          development of:
                              • Standards to be used by all federal
                                  agencies to categorize all
                                  information and information
                                  systems collected or maintained by
                                  or behalf of each agency based on
                                  objectives of providing appropriate
                                  levels of information security
                                  according to risk levels;
                              • Guidelines for determining the
                                  types of information and
                                  information systems to be included
                                  in each category; and
                              • Minimum information security
                                  requirements, e.g., management,
                                  operational, and technical controls.

Guidelines                Official advice or recommendation
                          indicating how something should be done
                          or what sort of action should be taken in a
                          particular circumstance.

Information Security      The protection of information and
                          information systems from unauthorized
                          access, use, disclosure, disruption,
                          modification, or destruction in order to
                          provide confidentiality, integrity, and
                          availability.

Information System        A discrete set of information resources
                          organized for the collection, processing,
                          maintenance, use, sharing, dissemination,
                          or disposition of information.

Information Technology    Any equipment or interconnected system or
                          subsystem of equipment that is used in the
                          automatic acquisition, storage,
                          manipulation, management, movement,
                          control, display, switching, interchange,
                          transmission, or reception of data or
                          information.
Procedures                Detailed step by step instructions.



                         10
                                                      AR 07-02A-01


Security Controls    The management, operational, and
                     technical controls (i.e. safeguards or
                     countermeasures) prescribed for an
                     information system to protect the
                     confidentiality, integrity, and availability of
                     the system and its information.

Security Policy      A security policy provides for the basic
                     information technology security procedures
                     for management, the rules for employees to
                     adhere to and the standards for which the
                     information technology staff must
                     maintain.

Standards            Provide the level or quality or excellence
                     that is accepted as the norm or by which
                     actual attainments are judged.

Strategic Plan       A strategic plan is prepared to accomplish a
                     framework for decisions. It is visionary by
                     nature and does not reflect specific details
                     and or tasks to accomplish in the short
                     term.




                    11
      AR 07-02A-01


     APPENDIX II




12
     AR 07-02A-01




13
     AR 07-02A-01




14
